HHS/OIG-Audit--"Follow-up to Review of Medical Necessity For Ambulance Services, (A-01-94-00528)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-up to Review of Medical Necessity For Ambulance Services," (A-01-94-00528)
June 14, 1995
Complete
Text of Report is available in PDF format (1.2 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
In a prior report we estimated that the Health Care Financing Administration (HCFA) could save the Medicare Part B program
about $12.8 million annually if reimbursement for advanced life support (ALS) ambulance services was based on the medical
need of the patient rather than on the type of ambulance used to transport the patient. The HCFA concurred with our recommendations
to strengthen reimbursement guidelines, but has not taken the action necessary to implement them. Since we completed our
prior review Medicare allowed charges for ALS services have nearly tripled, and an opportunity for significant savings
to the Part B program has been lost. In this follow-up report we are again recommending that HCFA revise instructions for
reimbursement of ALS ambulance services, and direct carriers to establish controls to ensure that reimbursement for ALS
services is based on medical need. The HCFA generally agreed with these recommendations.